            Office of Inspector General




March 8, 2005

LYNN MALCOLM
VICE PRESIDENT, FINANCE, CONTROLLER

SUBJECT: Audit Report – Audit of Statistical Tests for Fiscal Year 2004 – Cost and
         Revenue Analysis (Report Number FF-AR-05-076)

This report presents the results of our audit of the statistical tests for the fiscal
year 2004 Cost and Revenue Analysis (Project Number 04XD002FF000). We
conducted the audit in support of the Postal Service Cost and Revenue Analysis.

The Postal Service generally conducted tests of the Origin-Destination Information
System-Domestic Revenue, Pieces, and Weight System (ODIS-RPW); the In-Office
Cost System (IOCS); the Transportation Cost System (TRACS); and the System for
International Revenue and Volume, Outbound (SIRVO) in accordance with policies and
procedures. However, of the 438 tests observed, we identified 66 test errors in 47 tests,
but we do not believe these errors affected the overall validity of the process. For
example, employees did not always adhere to instructions for classifying and sampling
data and conducting readings. Also, employees did not always enter data correctly into
the Computerized On-Site Data Entry System. Unless improvements are made, the
integrity of Postal Service data may be compromised. Since the Postal Service uses
the results of statistical tests in the ratemaking process, the data must be as accurate
and consistent as possible.

We recommended management reinforce, through training, the correct procedures for
classifying mail; including all applicable mail; sampling mailpieces and returning mail in
a timely manner to the mailstream; balancing and testing scales; and loading data into
the computer for tests of the ODIS-RPW, IOCS, and SIRVO Systems. We also
recommended management reinforce procedures so that managers, Statistical
Programs, conduct process reviews, as required. Management agreed with our
recommendations and has taken action to address the issues in this report.
Management’s comments and our evaluation of these comments are included in the
report.




   1735 N Lynn St.
   Arlington, VA 22209-2020
    (703) 248-2100
    Fax: (703) 248-2256
We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Sheila Bruck or
me at (703) 248-2300.

/s/ Colleen A. McAntee

Colleen A. McAntee
Deputy Assistant Inspector General
 for Field Operations

Attachments

cc: Richard J. Strasser, Jr.
    J. Ron Poland
    Margaret A. Weir
    Steven R. Phelps
Audit of Statistical Tests for Fiscal Year 2004 –                    FF-AR-05-076
 Cost and Revenue Analysis


                                      TABLE OF CONTENTS

Executive Summary                                                    i

Part I

Introduction                                                        1

    Background                                                      1
    Objective, Scope, and Methodology                               3
    Prior Audit Coverage                                            4

Part II

Audit Results                                                       5

    Observations                                                    5
    Test Results                                                    5
    Process Reviews                                                 6
    Recommendations                                                 7
    Management Comments                                             7
    Evaluation of Management’s Comments                             7

Appendix A. Abbreviations                                           8

Appendix B. Fiscal Year 2004 Cost and Revenue Analysis:              9
            Summary of Observations of Data Collection Procedures

Appendix C. Management’s Comments                                   10
Audit of Statistical Tests for Fiscal Year 2004 –                                      FF-AR-05-076
 Cost and Revenue Analysis


                                      EXECUTIVE SUMMARY
Introduction                     This report presents the results of our audit of statistical
                                 tests for the fiscal year 2004 Cost and Revenue Analysis
                                 (Project Number 04XD002FF000). We conducted the audit
                                 in support of the Postal Service Cost and Revenue Analysis.

                                 The Postal Service conducts statistical tests to collect cost,
                                 revenue, and volume data. Our audit objective was to
                                 determine whether these tests were performed in
                                 accordance with established Postal Service policies and
                                 procedures. We observed 188 data collectors performing
                                 cost and revenue analysis tests in 30 statistically selected
                                 districts and at 4 judgmentally selected airport and surface
                                 mail facilities. We issued 34 audit reports to district
                                 managers at the completion of our audits.

Results in Brief                 The Postal Service generally conducted its tests of the
                                 Origin-Destination Information System-Domestic Revenue,
                                 Pieces, and Weight System (ODIS-RPW); the In-Office Cost
                                 System (IOCS); the Transportation Cost System (TRACS);
                                 and the System for International Revenue and Volume,
                                 Outbound (SIRVO) in accordance with policies and
                                 procedures. However, of the 438 tests observed, we
                                 identified 66 test errors in 47 tests. We do not believe these
                                 errors affected the overall validity of the process. For
                                 example, employees did not always adhere to instructions
                                 for classifying and sampling data and conducting readings.
                                 Also, employees did not always enter data correctly into the
                                 Computerized On-site Data Entry System. Unless
                                 improvements are made, the integrity of Postal Service data
                                 may be compromised. Also, the Postal Service uses the
                                 results of statistical tests in the ratemaking process;
                                 therefore, the data must be as accurate and consistent as
                                 possible.

Summary of                       We recommended management reinforce, through training,
Recommendations                  the correct procedures for classifying mail; including all
                                 applicable mail; sampling mailpieces and returning mail in a
                                 timely manner to the mailstream; balancing and testing
                                 scales; and loading data into the computer for tests of the




                                                    i
Audit of Statistical Tests for Fiscal Year 2004 –                                     FF-AR-05-076
 Cost and Revenue Analysis



                                 ODIS-RPW, IOCS and SIRVO Systems. We also
                                 recommended management reinforce procedures so that
                                 managers, Statistical Programs, conduct process reviews as
                                 required.

Summary of                       Management agreed with our recommendations, and
Management’s                     instructed managers, Statistical Programs, to reinforce,
Comments                         through training, the correct procedures for classifying mail,
                                 sampling mailpieces, returning mail to the mailstream,
                                 balancing scales, and loading data into the CODES laptop.
                                 Further, management instructed managers, Statistical
                                 Programs, to conduct process reviews in accordance with
                                 Statistical Programs policy. Management’s comments, in
                                 their entirety, are included in Appendix C of this report.

Overall Evaluation of            Management’s comments are responsive to our
Management’s                     recommendations, and the actions taken should correct the
Comments                         issues identified in the report.




                                                    ii
Audit of Statistical Tests for Fiscal Year 2004 –                                    FF-AR-05-076
 Cost and Revenue Analysis


                                            INTRODUCTION
 Background                       The Postal Reorganization Act of 1970 requires the Postal
                                  Service to break even financially over a period of years.
                                  Total revenue must equal total cost for each class of mail.
                                  The act specifies that each class of mail or type of mail
                                  service should bear the direct and indirect costs attributable
                                  to it. To meet this requirement, the Postal Service must
                                  determine the cost, revenue, and volume of each mail class,
                                  subclass, and special mail service. Postal Service revenue
                                  and cost accounting systems do not provide revenue and
                                  cost information at the subclass and special service levels.
                                  Therefore, the Postal Service needs various statistical
                                  systems and special studies to develop estimates of costs,
                                  revenues, and volumes for categories of mail. The Postal
                                  Service uses these estimates to prepare rate cases and
                                  budgets, conduct cost studies, and measure mail flow and
                                  service performance.

 Origin-Destination               The Origin-Destination Information System-Domestic
 Information System-              Revenue, Pieces, and Weight System (ODIS-RPW) is one
 Domestic Revenue,                of two probability sampling systems that estimate revenue,
 Pieces, and Weight               volume flow, weight, and performance measurement for the
 System                           Postal Service. The Postal Service uses data from tests to
                                  develop proposals for new rates, assist in budget
                                  preparation, conduct management studies, and support
                                  management decisions concerning mail flow and service
                                  performance in transportation and operations.

                                  The Postal Service developed the ODIS-RPW System to
                                  more efficiently and economically gather information that
                                  was previously collected by two separate systems, the
                                  Origin-Destination Information System and the Domestic
                                  Revenue, Pieces, and Weight System.

                                  The ODIS-RPW test requires data collectors to
                                  systematically select mailpieces using a random start for all
                                  mail available on the randomly selected day. Data
                                  collectors record various mailpiece characteristics, such as
                                  revenue, weight, shape, indicia, barcode, postmark time,
                                  and origin and mail class.

                                   Handbook F-75, Data Collection User’s Guide for Revenue,
                                   Volume, and Performance Measurement Systems, states




                                                    1
Audit of Statistical Tests for Fiscal Year 2004 –                                        FF-AR-05-076
 Cost and Revenue Analysis


                                  that data collectors are responsible for isolating, counting,
                                  and recording the appropriate mailpieces for the tests.

 In-Office Cost System            The In-Office Cost System (IOCS) provides data for
                                  estimating labor costs in post offices and special processing
                                  facilities. The system does this by sampling what an
                                  employee is doing at a given point in time and developing
                                  estimates of the proportions of employee work time spent
                                  on various functions, including handling or processing
                                  categories of mail. Time proportions are then used to
                                  estimate the costs attributable to each class and subclass of
                                  mail and each special service.

                                  Handbook F-45, In-Office Cost System – Field Operating
                                  Instructions, states that everyone who participates in a
                                  reading is responsible for properly collecting required
                                  information. This includes the data collector, the sampled
                                  employee, and others who may provide information to the
                                  data collector about the sampled employee.

 Transportation Cost              The Transportation Cost System (TRACS) is a statistical
 System                           sampling and data collection system that provides
                                  information to estimate costs by subclass for the major cost
                                  accounts for interfacility purchased transportation. TRACS
                                  uses five separate sampling systems to collect data:
                                  highway, rail, Amtrak, passenger air, and network air.
                                  TRACS develops:

                                       •   Cubic-foot-mile distribution keys for highway and rail
                                           costs.

                                       •   Square-foot-mile distribution keys for Amtrak costs.

                                       •   Pound-mile distribution keys for passenger air costs.

                                       •   Pound distribution for night turn network air costs.

                                       •   Cubic feet distribution for day turn network air costs.

                                  Handbook F-65, Data Collection User’s Guide for Cost
                                  Systems, provides detailed instructions to data collectors for
                                  conducting the tests of truck, air, and rail trips.




                                                     2
Audit of Statistical Tests for Fiscal Year 2004 –                                      FF-AR-05-076
 Cost and Revenue Analysis



    System for                    The System for International Revenue and Volume,
    International Revenue         Outbound (SIRVO) is one of two sampling systems that
    and Volume, Outbound          estimate revenue, volume, and weight of international mail
                                  for the Postal Service. The Postal Service uses information
                                  collected by these systems to estimate the revenue,
                                  volume, and weight of outbound international mail. The
                                  Postal Service uses SIRVO data to advise management on
                                  budgeting and planning issues and to plan the Postal
                                  Service budget based on forecasts of mail volume,
                                  workloads, and overall productivity.

                                  Handbook F-85, Data Collection User’s Guide for
                                  International Revenue, Volume, and Performance
                                  Measurement Systems, provides detailed instructions to
                                  data collectors for conducting tests of international mail.

    Objective, Scope, and         The objective of our audit was to determine whether
    Methodology                   statistical tests conducted to collect cost, revenue, and
                                  volume data were performed in accordance with Postal
                                  Service policies and procedures. To accomplish our
                                  objective, we conducted fieldwork from January 13 through
                                  August 27, 2004. We observed 188 judgmentally selected
                                  data collectors performing cost and revenue analysis tests in
                                  30 statistically selected districts and 4 judgmentally selected
                                  airport and surface mail facilities.

                                  Specifically, we judgmentally selected and observed:1

                                       •   108 ODIS-RPW tests.
                                       •   263 IOCS tests.
                                       •   25 TRACS tests.
                                       •   42 SIRVO tests.

                                  We interviewed the data collectors performing selected tests
                                  and reviewed the reports of each test provided by district
                                  Statistical Programs officials. In addition, we reviewed
                                  process review reports, using fiscal year (FY) 2003 data in
                                  30 districts that showed whether managers conducted the
                                  2,478 reviews of data collection procedures as required.



1
    See table in Appendix B.




                                                    3
Audit of Statistical Tests for Fiscal Year 2004 –                                     FF-AR-05-076
 Cost and Revenue Analysis




                                  We conducted this audit from October 2003 through
                                  March 2005 in accordance with generally accepted
                                  government auditing standards, and included such tests of
                                  internal controls as were considered necessary under the
                                  circumstances. We discussed our observations and
                                  conclusions with management officials and included their
                                  comments, where appropriate. We also issued interim
                                  reports to the respective district managers in 34 districts.

 Prior Audit Coverage             On February 10, 2004, the Office of Inspector General
                                  issued Report Number FF-AR-04-038, Audit of Statistical
                                  Tests for Fiscal Year 2003 – Cost and Revenue Analysis.
                                  The report stated that employees did not always adhere to
                                  instructions for sampling, equipment use, and telephone
                                  readings. Also, data was not always entered correctly into
                                  the Computerized On-Site Data Entry System (CODES).

                                  Headquarters Statistical Programs directed district
                                  managers of Statistical Programs to reinforce, through
                                  training, issues identified in the report. However, our review
                                  determined that the problem areas discussed in the
                                  FY 2003 report still needed improvement.




                                                    4
Audit of Statistical Tests for Fiscal Year 2004 –                                         FF-AR-05-076
 Cost and Revenue Analysis


                                           AUDIT RESULTS

    Observations                  The Postal Service generally conducted tests of its ODIS-
                                  RPW, IOCS, TRACS, and SIRVO in accordance with
                                  policies and procedures established by the Postal Service.
                                  However, we detected the following test errors during our
                                  observations.

    Test Results                  ODIS-RPW:

                                  We observed 108 ODIS-RPW tests and detected
                                  45 instances of incorrect application of data collection
                                  procedures2 in 29 tests. Specifically, data collectors did not
                                  follow correct procedures for:

                                       •   Classifying mail in three tests.

                                       •   Including all applicable mail in four tests.

                                       •   Sampling mail in four tests.

                                       •   Entering data correctly into CODES in eight tests.

                                       •   Testing the accuracy of weigh scales in ten tests.

                                  IOCS:

                                  We observed 263 IOCS tests and detected 13 instances of
                                  incorrect application of data collection procedures3 in 13
                                  tests. Specifically, data collectors:

                                       •   Used leading questions while conducting telephone
                                           readings in nine tests.

                                       •   Performed on-site readings without using the CODES
                                           laptop in three tests.

                                       •   Did not identify mailpiece markings in one test.




2
    See table in Appendix B.
3
    See table in Appendix B.




                                                     5
Audit of Statistical Tests for Fiscal Year 2004 –                                        FF-AR-05-076
 Cost and Revenue Analysis



                                  TRACS:

                                  We observed 25 TRACS tests and did not identify any
                                  significant errors.

                                  SIRVO:

                                   We observed 42 SIRVO tests and detected 8 incorrect
                                   applications of data collection procedures4 in 7 tests.
                                   Specifically, data collectors did not:

                                            •   Test their scales before conducting SIRVO tests
                                                in two tests.

                                            •   Accurately count the number of mailpieces and
                                                volume in the randomly selected container in
                                                two tests.

                                            •   Handle mailpieces properly and enter accurate
                                                data into CODES in two tests. For example, a
                                                data collector did not isolate postage due
                                                mailings and enter correct postage.

                                            •   Release tested mailings on time for the
                                                processing unit to load onto the airport delivery
                                                truck in one test.

                                  During our observations, we discussed ODIS-RPW, IOCS,
                                  TRACS, and SIRVO test errors with data collectors and
                                  district Statistical Programs officials. Postal Service officials
                                  agreed with the errors we identified and made the
                                  appropriate corrections when possible.

    Process Reviews               We noted the managers of Statistical Programs in
                                  13 districts did not complete 267 of 1,112 data collector
                                  process reviews. Managers stated that higher priority
                                  projects prevented them from completing all the reviews.
                                  Without the process reviews, managers could not ensure
                                  that the data collected was accurate and fully represented
                                  operations.


4
    See Table in Appendix B.




                                                      6
Audit of Statistical Tests for Fiscal Year 2004 –                                    FF-AR-05-076
 Cost and Revenue Analysis




 Recommendation                   We recommend the Vice President, Finance, Controller:

                                  1. Reinforce, through training, the correct procedures for
                                     classifying mail, including all applicable mail, sampling
                                     mailpieces and returning mail in a timely manner to the
                                     mailstream, balancing and testing scales, and loading
                                     data into the computer for tests of the Origin-Destination
                                     Information System-Domestic Revenue, Pieces, and
                                     Weight System; the In-Office Cost System; and the
                                     System for International Revenue and Volume,
                                     Outbound.

 Management’s                     Management agreed with our recommendation and on
 Comments                         February 28, 2005, instructed, managers, Statistical
                                  Programs, to reinforce, through training, the correct
                                  procedures for classifying mail, sampling mailpieces,
                                  returning mail to the mailstream, balancing scales, and
                                  loading data into the CODES laptop.

 Evaluation of                    Management’s comments are responsive to our
 Management’s                     recommendation, and actions taken should correct the
 Comments                         issues identified.

 Recommendation                   We recommend the Vice President, Finance, Controller:

                                  2. Reinforce procedures so that managers, Statistical
                                     Programs, conduct process reviews, as required.

 Management’s                     Management agreed with our recommendation and on
 Comments                         February 28, 2005, instructed managers, Statistical
                                  Programs, to conduct process reviews in accordance with
                                  Statistical Programs policy.

 Evaluation of                    Management’s comments are responsive to our
 Management’s                     recommendation, and actions taken should correct the issue
 Comments                         identified.




                                                    7
Audit of Statistical Tests for Fiscal Year 2004 –                                   FF-AR-05-076
 Cost and Revenue Analysis


                               APPENDIX A. ABBREVIATIONS

CODES                              Computerized On-Site Data Entry System

FY                                 Fiscal Year

IOCS                               In-Office Cost System

ODIS-RPW                           Origin-Destination Information System-Domestic
                                   Revenue, Pieces, and Weight System

OIG                                Office of Inspector General

SIRVO                              System for International Revenue and Volume,
                                   Outbound

TRACS                              Transportation Cost System




                                                    8
Audit of Statistical Tests for Fiscal Year 2004 –                                                     FF-AR-05-076
 Cost and Revenue Analysis


         APPENDIX B. FY 2004 COST AND REVENUE ANALYSIS:
    SUMMARY OF OBSERVATIONS OF DATA COLLECTION PROCEDURES5
                                                                                                          System for
                                                                                                        International
                                     Domestic Revenue                                                      Revenue
                                     Pieces and Weight            In-Office Cost     Transportation      and Volume,
                                          System                     System           Cost System          Outbound
                        Week                                                                                      Total
                        Data        Number of         Total      Number      Total  Number    Total    Number Number
                      Collected       Tests         Number      of Tests    Number of Tests Number of Tests        of
        District      (FY 2003)     Observed        of Errors   Observed of Errors Observed of Errors Observed Errors
xxxxxxxxxxxx             1/26/04        4              0             9         0          1           0           -         -
xxxxxxxxxxxx             2/23/04        4              2             8         1          1           0           -         -
xxxxxxxxxxxx              3/8/04        4              7             8          0          0          0           -          -
xxxxxxxxxxxx              3/8/04        4              0             8          0          1          0           -         -
xxxxxxxxxxxx             3/15/04        4              0             8         0          1           0           -         -
xxxxxxxxxxxx             3/22/04        4              0             8         0          1           0           -         -
xxxxxxxxxxxx             3/22/04        4              1             8         4          1           0           -         -
xxxxxxxxxxxx             3/15/04        4              0             9         0          1           0           -         -
xxxxxxxxxxxx             3/29/04        4              3            10         0          1           0           -         -
xxxxxxxxxxxx             3/29/04        4              0             8         0          1           0           -         -
xxxxxxxxxxxx             4/12/04        3              4             8         1          1           0           -         -
xxxxxxxxxxxx              4/5/04        3              3             9          0          1          0           -          -
xxxxxxxxxxxx              4/5/04        4              0            10         0          1           0           -         -
xxxxxxxxxxxx             4/19/04        4              0            10         0          1           0           -         -
xxxxxxxxxxxx             4/19/04        3              0             9         0          1           0           -         -
xxxxxxxxxxxx             4/26/04        3              0            10         0          0           0           -         -
xxxxxxxxxxxx             4/26/04        4              1            10         0          0           0           -         -
xxxxxxxxxxxx             4/26/04        3              4             8         0          0           0           -         -
xxxxxxxxxxxx             5/10/04        3              4             8         0          1           0           -         -
xxxxxxxxxxxx              5/3/04        3              2             8         4           1          0           -         -
xxxxxxxxxxxx             5/18/04        3              0             9         0          1           0           -          -
xxxxxxxxxxxx              6/7/04        3              6             9         0           1          0           -         -
xxxxxxxxxxxx             6/28/04        4              2            10         0          0           0           -         -
xxxxxxxxxxxx             6/21/04        4              0             8         0          1           0           -         -
xxxxxxxxxxxx             6/28/04        4              0            10         1          1           0           -         -
xxxxxxxxxxxx             8/23/04        4              0             8         0          1           0           -         -
xxxxxxxxxxxx             7/12/04        4              1            10         2          1           0           -         -
xxxxxxxxxxxx             7/12/04        3              1            10         0          1           0           -         -
xxxxxxxxxxxx             7/12/04        3              4             8         0          1           0           -         -
xxxxxxxxxxxx             7/19/04        3              0             7         0          1           0           -         -
xxxxxxxxxxxx              8/9/04        -               -            -          -          -          -          10          0
xxxxxxxxxxxx             1/13/04         -              -            -          -          -          -          10         5
xxxxxxxxxxxx              2/2/04         -              -            -          -          -          -          12         1
xxxxxxxxxxxx             5/24/04         -              -            -          -          -          -          10         2
TOTALS                                 108             45           263        13         25          0          42         8


    5
     Although the percentage of tests with errors appears high, each test contains multiple records and fields. Thus, the
    percentage of erroneous test entries would be much lower than the total number of tests containing errors.




                                                                9
Audit of Statistical Tests for Fiscal Year 2004 –             FF-AR-05-076
 Cost and Revenue Analysis


                          APPENDIX C. MANAGEMENT’S COMMENTS




                                                    10
Audit of Statistical Tests for Fiscal Year 2004 –        FF-AR-05-076
 Cost and Revenue Analysis




                                                    11
